     Department of Health and Human Services

             OFFICE OF
        INSPECTOR GENERAL




    Medicare   Reimbursement      for Parenteral
                    Nutrition




                         JUNE GIBBS BROWN
                         Inspector General

                              JULY 1997
                            OEI-03-96-00230
I
                      OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-

452, is to protect the integrity of the Department of Health and Human Services programs 

as well as the health and welfare of beneficiaries served by them. This statutory mission 

is carried out through a nationwide program of audits, investigations, inspections, 

sanctions, and fraud alerts. The Inspector General informs the Secretary of program and 

management problems and recommends legislative, regulatory, and operational approaches 

to correct them. 





                        Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office
of Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the
public. The inspection reports provide findings and recommendations    on the efficiency,
vulnerability, and effectiveness of departmental programs.

OEI’s Philadelphia Regional Office prepared this report under the direction     of Robert
A.Vito, Regional Inspector General. Principal OEI staff included:

REGION                                               HEADOUARTERS

Nancy J. Molyneaux, Project Leader                   Jennifer Antico, Program   Specialist 

Cynthia Hansford, Program Assistant                  Brian Ritchie, TSS 

Daniel Lai, Intern 

Amy Lin, Intern 

Andrew Peterson Pharm. D., Consultant 


OFFICE OF AUDIT SERVICES

Maritza Hawrey , Auditor




To obtain a copy of this report, call the Philadelphia   Regional Office at l-800-531-9562.
               EXECUTIVE                             SUMMARY

PURPOSE

This report examines Medicare’s reimbursement     of parenteral nutrition compared           to 

that of State Medicaid agencies, Medicare risk-contract health maintenance 

organizations (HMOs), and manufacturers’   charges to suppliers. 


BACKGROUND

Medicare Coverage of Parenteral Nutrition

For Medicare beneficiaries with severe permanent       disease of the gastrointestinal    tract, 

parenteral   nutrition may be the only way to receive the nutrients they need. 

Parenteral nutrition is a liquid solution provided intravenously      through use of an 

indwelling catheter and a parenteral nutrition infusion pump. Parenteral nutrition is 

covered under Medicare’s prosthetic device provision.        According to the Medicare 

Carriers Manual, section 2130, Medicare covers accessories and/or supplies which are 

used with a parenteral    device to achieve the therapeutic    benefit of the device. 

Medicare only covers parenteral nutrition for beneficiaries whose gastrointestinal 

condition (e.g., massive bowel resection) permanently       prevents them from absorbing 

the nutrients needed to maintain weight and strength commensurate            with their health 

status. 


According to the Part B Extract and Summary System (BESS), Medicare allowed $163 

million in 1995 for parenteral nutrition solutions, not including pumps or supplies. 

Eighty-nine percent of this was for just four procedure codes (B4189, B4193, B4197, 

and B4199) representing    pre-mixed parenteral solutions with varying amounts of 

protein.   See Appendix A for a complete description of each code. 


We compared Medicare’s reimbursement        methodology  and reimbursement     levels for 

the four parenteral nutrition procedure codes with the highest allowances in 1995 with 

those of State Medicaid agencies and the 20 Medicare risk-contract HMOs with the 

highest enrollments.    We also compared Medicare’s reimbursement      levels with 

manufacturers’   contract prices for one low-volume parenteral nutrition supplier. 


FINDINGS

Medicare reimbursement for the four parenteral nutrition codes is an average of 45
percent higher than lower-paying Medicaid agencies.

Thirty-two of the 49 Medicaid agencies that responded to our survey were able to
provide at least some pricing information  on the four selected parenteral nutrition
procedure   codes. Medicare reimbursement     for one or more of the four parenteral
nutrition codes is higher than that of the majority of these 32 agencies.


                                                 i
Medicare reimbursement for the four parenteral nutrition codes is an average of 78
percent higher than lower-paying Medicare risk-contract HMOs.

Ten of the 17 Medicare risk-contract HMOs that responded     to our survey were able
to provide pricing information on one or more of the four selected parenteral nutrition
codes. Medicare reimburses more than all 10 HMOs for one or more of the four
codes examined.

Medicare reimbursement for the four parenteral nutrition codes is an average of 11 times
higher than some manufacturers’ contract prices.

Medicare reimbursement     for the four selected codes is between 9 and 12 times
percent higher than the contracted price charged by three manufacturers    to a low-
volume supplier of parenteral nutrition.

RECOMMENDATION

HCFA should examine other paymentmethodsthat could lead to more cost effective
reimbursementfor parenteralnutritionsolutions.

It is clear that many other payers reimburse less than Medicare for parenteral
nutrition.   In addition, suppliers may purchase parenteral nutrition solutions at
discounted prices which are significantly lower than Medicare’s reimbursement      rates.
We urge HCFA to pursue one or more of the following options to bring Medicare’s
reimbursement     in line with Medicaid and other payers.

Inherent      Reasonableness

The Secretary or the DMERCs can use their “inherent         reasonableness”   authority        to
reduce reimbursement  to more appropriate levels.

Acquisition      Cost

The HCFA could base its reimbursement        on suppliers   acquisition costs. There      is
evidence that acquisition costs for parenteral nutrition    are far below Medicare’s
current reimbursement    rate.

Competitive       Bidding

The HCFA could seek legislative authority to use competitive bidding to take
advantage of its position as a high-volume purchaser of parenteral nutrition.




                                              ii
AGENCY COMMENTS

The HCFA concurred with our recommendation.          The HCFA reported that they have
convened a Workgroup to focus on ways to reduce and control costs for parenteral
nutrition.  The HCFA also explained that the President’s Fiscal Year 1998 budget
includes proposals to give carriers the authority to make inherent reasonableness
adjustments   for durable medical equipment, to eliminate the mark up for drugs and
biologicals and include acquisition cost in the reimbursement   calculation, and to
authorize the Secretary to set payment rates for Part B services bases on competitive
bidding.




                                          ...
                                          111
                       TABLE                    OF          CONTENTS

                                                                                                                  PAGE 


EXECUTM3SUMMARY 


INTRODUCI’ION            .. ... ... .............. ......... .. ..... .... .. .. ..                                       1


FINDINGS        .. ................ ....................... ..... .... ...                                                4


 @Medicare Reimburses More Than Many State 

  Medicaid Agencies . . . . . . . . . . . . . . . . . . , . . . . . . . . . . . . . . . . . . . . . . . . . .             4


 *Medicare Reimburses More Than Many Medicare 

   Risk-Contract HMOs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .               6


 @Medicare Reimburses  Significantly More Than 

  Manufacturers  Charge Suppliers . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                   8


RECOMMENDATION                   ................................. .... .... ...                                          9


ENDNOTES          . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10 


APPENDIX A: Definition              of Procedure        Codes     . . . . . . . . . . . . . . . . . . . . . . . . .   A-l 


APPENDIX B: Agency             Comments          . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . B-l 

                            INTRODUCTION 




PURPOSE

This report examines Medicare’s reimbursement     of parenteral nutrition compared            to 

that of State Medicaid agencies, Medicare risk-contract health maintenance 

organizations (HMOs), and manufacturers’   charges to suppliers. 


BACKGROUND

For Medicare beneficiaries with severe permanent        disease of the gastrointestinal    tract, 

parenteral nutrition may be the only way to receive the nutrients they need. 

Parenteral nutrition is a liquid solution provided intravenously      through use of an 

indwelling catheter and a parenteral nutrition infusion pump. The solution is usually 

composed of protein, carbohydrates,      electrolytes, multivitamins,   and trace elements. 

Beneficiaries using parenteral nutrition may also be administered         fat emulsions (lipids) 

about twice a week. 


Medicare Program

Parenteral nutrition is covered under Medicare’s prosthetic device provision. 

According to the Medicare Carriers Manual, section 2130, Medicare covers accessories 

and/or supplies which are used with a parenteral device to achieve the therapeutic 

benefit of the device. Medicare only covers parenteral nutrition for beneficiaries 

whose gastrointestinal   condition (e.g., massive bowel resection) permanently  prevents 

them from absorbing the nutrients needed to maintain weight and strength 

commensurate     with their health status, Parenteral nutrition is only covered when 

administered   under a doctor’s order. 


As of October 1993, the Health Care Financing Administration       (HCFA), which 

administers the Medicare program, began to regionalize the processing of claims for 

durable medical equipment, prosthetics, orthotics and supplies (DMEPOS) into four 

Durable Medical Equipment      Regional Carriers (DMERCs).      Prior to this, HCFA 

contracted with two specialty carriers to process parenteral nutrition claims. 

Parenteral nutrition, as a supply used with a prosthetic device, is part of the 

DMERCs’ claims processing responsibilities.     Establishing the DMERCs was part of 

an effort by HCFA to prevent fraud and abuse and streamline claims processing.        The 

DMERCs are also responsible for setting the reimbursement        amounts based on 

Medicare guidelines. 





                                                 3

Medicare Allowances for Parenteral Nutrition

According to the Part B Extract and Summary System (BESS), Medicare allowed $163
million in 1995 for parenteral nutrition solutions, not including pumps or supplies.
Eighty-nine percent of this was for just four procedure codes (B4189, B4193, B4197,
and B4199) representing     pre-mixed parenteral solutions with varying amounts of
protein.   See Appendix A for a complete description of each code. According to the
Medicare Coverage Issues Manual, parenteral nutrition components        are normally
mixed by the beneficiary or another nonprofessional      person. However, Medicare will
cover the more expensive pre-mixed solutions if the beneficiary is unable to safely or
effectively mix the solution and there is no family member or other person who can do
so. In 1993 and 1994, the four pre-mixed solution codes represented,      respectively, 89
and 81 percent of all allowances for parenteral nutrition solution.

Medicare Reimbursement Methodology

Medicare establishes reimbursement     for 23 procedure codes related to parenteral
nutrition.  Medicare uses the reasonable charge methodology       to determine the
allowances for each parenteral nutrition code.    The  reasonable   charge which is used in
determining  the allowed amount for a particular procedure      code is the lowest of:

       1.     the   actual charge as submitted on the claim;
       2.     the   supplier’s customary charge;
       3.     the   prevailing charge;
       4.     the   lowest charge level (LCL); or
       5.     the   inflation index charge (IIC).

According to the Omnibus Budget Reconciliation     Act of 1986, reimbursement    levels
for parenteral nutrition solutions and supplies must include the lowest charge level
methodology.   The lowest charge level is the 25th percentile of providers’ charges.

Other Payers’ Reimbursement Methodologies

According to research conducted by the Office of Inspector General’s (OIG) Office of
Audit Services (OAS), some other payers pay significantly less for parenteral nutrition
than Medicare.     Some of these payers’ reimbursement      formulas include payments
based on all-inclusive per diem rates. All-inclusive or global rates include parenteral
nutrition solution, supplies, administration kits, infusion pumps, and IV poles.

Related Work by the Office of Inspector General

In 1993, the OIG’s Office of Evaluation and Inspections released a report titled,
Inappropriate Payments for Total Pat-enter-alNutrition (OEI-12-92-00460).   The
inspection found: (1) Medicare overpaid $69 million for total parenteral nutrition in
1991, 43 percent of the total of $162 million allowed for this service; (2) 53 percent of
the beneficiaries had end-stage renal disease and received parenteral nutrition as a


                                               2
supplement   three times a week, at high cost and with questionable     benefits; (3) review
of the use of parenteral nutrition among non end-stage renal disease beneficiaries
revealed inappropriate   patient selection and over- and under-feeding.

MJZlTlODOLOGY

We determined     Medicare’s allowances for each of the 23 procedure     codes which cover 

parenteral nutrition solutions and supplies. We arrayed these codes by allowance for 

1993, 1994, and 1995. We determined      Medicare’s 1996 reimbursement       levels based on 

the Medicare’s maximum reimbursement        for the four parenteral nutrition solution 

codes with the highest allowances in 1995. 


With the assistance of a pharmacist-consultant,  we identified the components which 

would generally be included in solutions reimbursed under each of the four codes. 


We contacted each State Medicaid agency to determine what their reimbursement 

formulas were and their maximum reimbursement        for the solutions representing the 

four codes. We also determined    what items or services, if any, were included in their 

reimbursement  for parenteral nutrition solutions. 


We identified the 20 Medicare risk-contract HMOs with the highest enrollments           as of 

July 1996. These HMOs covered 50 percent of all Medicare beneficiaries          enrolled in 

risk-contract HMOs. We contacted each HMO to determine what their 

reimbursement    formulas were and their maximum reimbursement         for the solutions 

representing  the four codes. We also determined   what other items or services were 

included in their reimbursement  for parenteral nutrition solutions. 


Supplier

In order to provide an illustration of provider acquisition costs for parenteral nutrition 

solution, we obtained one supplier’s contracted prices for parenteral nutrition 

products.  We compared the supplier’s cost for the nutrition products with Medicare 

reimbursement     rates. These contracted prices are from the three manufacturers       that 

dominate the parenteral nutrition market.     Manufacturers   provide different contracted 

prices to suppliers based on the volume purchased.      Since we received information 

from a low-volume supplier, the manufacturers’    contracted prices represent the upper 

threshold of suppliers’ contracted acquisition costs. Large volume purchasers would 

probably receive even further discounts in price from the manufacturers. 


While our primary emphasis is on how Medicare’s reimbursement        compares to that of 

other payers, we used the supplier’s contracted prices with manufacturers    to provide a 

basic comparison  of how acquisition costs for parenteral nutrition products compare to 

Medicare’s reimbursement. 





                                               3

                                FINDINGS 



Medicare Reimbursement for the Four Parenteral Nutrition Codes is an
Average of 45 Percent Higher Than Lower-Paying Medicaid Agencies.

Thirty-two of the 49 Medicaid agencies that responded to our survey provided pricing
information  on one or more of the four selected parenteral nutrition procedure  codes.
Medicare reimbursement    for one or more of the four parenteral nutrition codes is
higher than that of the majority of these 32 agencies (see Chart A on the next page).
In 1995, if Medicare reimbursement    for each of these four codes were reduced by the
average amount Medicare reimburses more than lower-paying Medicaid agencies, total
allowances would have been reduced from $145 million to $80 mil1ion.i

Procedure Code B4189

Medicare reimbursement      for B4189 ($162.39) is higher than more than two-thirds of 

the State Medicaid agencies that provided prices for this code. Medicare’s 

reimbursement    ranges between 3 and 204 percent higher than these Medicaid 

agencies’ reimbursement,    averaging 55 percent higher. In 1995, if Medicare 

reimbursement    for this code was reduced by the average amount Medicare reimburses 

more than lower-paying Medicaid agencies, Medicare allowances would have been 

reduced from $24 million to $10.8 million. 


Procedure Code B4193

Medicare’s reimbursement    for B4193 ($209.84) is higher than four-fifths of the State
Medicaid agencies that provided prices for this code. Medicare’s reimbursement
ranges between less than 1 and 215 percent higher than these Medicaid agencies’
reimbursement,   averaging 39 percent higher. In 1995, if Medicare reimbursement      for
this code was reduced by the average amount Medicare reimburses more than lower-
paying Medicaid agencies, Medicare allowances would have been reduced from $39
million to $23.8 million.

Procedure Code B4197

Medicare’s reimbursement      for B4197 ($248.00) is higher than more than three-

quarters of the State Medicaid agencies that provided prices for this code. Medicare’s 

reimbursement    ranges between 2 and 217 percent higher than these Medicaid 

agencies’ reimbursement,    averaging 46 percent higher. In 1995, if Medicare 

reimbursement    for this code was reduced by the average amount Medicare reimburses 

more than lower-paying Medicaid agencies, Medicare allowances would have been 

reduced from $66 million to $35.7 million. 





                                             4

Procedure Code B4199

Medicare’s reimbursement    for B4199 ($276.00) is higher than well over half of the
State Medicaid agencies that provided prices for this code. Medicare’s reimbursement
ranges between less than 1 and 209 percent higher, averaging 39 percent higher. In
1995, if Medicare reimbursement    for this code was reduced by the average amount
Medicare reimburses more than lower-paying Medicaid agencies, Medicare allowances
would have been reduced from $16 million to $9.6 million.

ChartA


              MEDICAID    AaENCIES   WHICH          REIMBURSE        LESS     -l-HAN   MEDICARE
                         COMPARED    TO    -l-O-,-AL     A<3ENCIES      BY   HCPCS
         36
              1




Other Reimbursement Formulas

Medicaid agencies which reimburse less than Medicare for parenteral nutrition use a
variety of reimbursement       formulas.   These include, but are not limited to,
reimbursement      based on: (1) the average wholesale price (AWP), (2) estimated costs,
(3) fee schedules, (4) global rates, and (5) previous Medicare rates. Reimbursement
may also include dispensing fees, compounding          fees, and payments for additives to the
parenteral  nutrition solution. Many of the Medicaid agencies that reimburse less than
Medicare’s current reimbursement         rate use a global rate or base their reimbursement
on Medicare rates from previous years. Many of those agencies which could not give
us pricing information     reimburse based on average wholesale prices or estimated costs
which vary by product.       Other agencies apply several formulas to calculate their
reimbursement,      then reimburse whichever is lowest.




                                                    J
Other Items Included in Parenteral Nutrition Reimbmement

While Medicare reimburses separately for each parenteral nutrition supply, it does not
provide separate reimbursement        for services related to parenteral nutrition.   In
contrast, some Medicaid agencies include both supplies and services in their
reimbursement     formula.    Of the eight agencies that reported including all other items
in their reimbursement,     six reimburse less than Medicare reimburses for the solution
alone for at least one of the four parenteral nutrition codes. Supplies include lipids,
administration   kits, supply kits, infusion pumps, and IV poles. Some of these agencies
also include added medications,      education, labor, and lab work in their
reimbursement.      For example, one agency, which reimburses based on a global rate,
reimburses $76 per liter of parenteral nutrition solution including labor and delivery,
the pump, supplies and added ingredients such as lipids. Medicare, on the other hand,
reimburses between $162 and $276 depending on the grams of protein in the solution
and reimburses an additional amount for the pump and other supplies.             At least five
other Medicaid agencies include some supplies or services in their reimbursement            for
parenteral nutrition solutions.

Medicare Reimbursement for the Four Parenteral Nutrition Codes is an
Average of 78 Percent Higher Than Lower-Paying Medicare Risk-
Contract HMOs.

Ten of the 17 Medicare risk-contract HMOs that responded to our survey were able 

to provide pricing information on one or more of the four selected parenteral nutrition 

codes. Medicare reimburses more than all 10 HMOs for one or more of the four 

codes examined (see Chart B on the next page). In 1995, if Medicare reimbursement 

for each of these four codes were reduced by the average amount Medicare 

reimburses more than lower-paying Medicare risk-contract HMOs, total allowances 

would have been reduced from $145 million to $31 million.’ 


Procedure Code B4189

Medicare reimbursement     for B4189 ($162.39) is higher than two-thirds of the HMOs
that provided prices for this code. Medicare’s reimbursement    ranges between 2 and
195 percent higher than these Medicare HMOs’ reimbursement,        averaging 74 percent
higher. In 1995, if Medicare reimbursement    for this code was reduced by the average
amount Medicare reimburses more than lower-paying HMOs, Medicare allowances
would have been reduced from $24 million to $6.3 million.

Procedure Code B4193

Medicare reimbursement    for B4193 ($209.84) is higher than nearly three-quarters of
the HMOs that provided prices for that code. Medicare’s reimbursement       ranges
between 2 and 282 percent higher than these Medicare HMOs’ reimbursement,
averaging 87 percent higher. In 1995, if Medicare reimbursement    for this code was



                                                6

reduced by the average amount Medicare reimburses more than lower-paying HMOs,
Medicare allowances would have been reduced from $39 million to $5.1 million.

Procedure Code B4197

Medicare reimbursement     for B4197 ($248.00) is higher than nearly all of the HMOs
that provided prices for that code. Medicare’s reimbursement    ranges between 1 and
351 percent higher than these Medicare HMOs’ reimbursement,        averaging 77 percent
higher. In 1995, if Medicare reimbursement    for this code was reduced by the average
amount Medicare reimburses more than lower-paying HMOs, Medicare allowances
would have been reduced from $66 million to $15.2 million.

Procedure Code B4199

Medicare reimbursement     for B4199 ($276.00) is higher than all the HMOs that
provided prices for that code. Medicare’s reimbursement     ranges between 6 and 325
percent higher than these Medicare HMOs’ reimbursement,        averaging 72 percent
higher. In 1995, if Medicare reimbursement    for this code was reduced by the average
amount Medicare reimburses more than lower-paying HMOs, Medicare allowances
would have been reduced from $16 million to $4.4 million.

Chart B


       MEDICARE    RISK-CONTRACT        HMO8       WHICH     REIMBURSE           LESS   THAN   MEDICARE
                             COMPARED     -l-O   l-O-l-AL   HMO=    BY   HCPCS
        ‘(‘I

               1




                                                       7

Other Reimbursement Form&s

Medicare HMOs which reimburse less than Medicare use a variety of reimbursement
methods including reimbursement    based on AWP, fee schedules, and global rates.
However, no particular reimbursement      formula used by Medicare HMOs is
consistently lower than Medicare’s rates.

Other Items Included in Parenteral Nutrition Reimbursement

At least nine Medicare HMOs include items other than the solution in their
reimbursement     for parenteral nutrition.   All nine include administration kits, supply
kits, pumps, and IV poles. Six HMOs include lipids and at least five include the
services of a health care professional.     Seven of the nine HMOs that include some
supplies in their reimbursement,    reimburse less than Medicare does for the parenteral
nutrition solution alone.

Few of the Medicare HMOs that gave us pricing information     reimburse more than
Medicare for any of the four parenteral nutrition codes. Of those that do,
reimbursement  is not significantly higher than Medicare’s. Four Medicare HMOs
reimburse more than Medicare for B4189 by an average of 18 percent.      Two Medicare
HMOs reimburse more than Medicare for B4193 by an average of 9 percent.       One
Medicare HMO reimburses 5 percent more than Medicare for B4197. No Medicare
HMOs reimburse more than Medicare for B4199.

Medicare Reimbursement for the Four Parenteral Nutrition Codes is an
Average of 11 Times Higher Than Some Manufacturers’ Contract Prices.

Medicare reimbursement      for the four selected codes is between 9 and 12 times higher
than the contracted price charged by three manufacturers      to a low-volume supplier of
parenteral nutrition.3 It is our assumption that manufacturer     charges to higher-
volume suppliers would be even lower.

Manufacturers’     contract prices for each of the parenteral nutrition solution codes
examined ranged between $13 and $29 for one supplier.         Medicare allows between
$162 and $276 for each of the four codes. While both the manufacturers’          prices and
Medicare rates presented here represent only the cost of the parenteral        nutrition
solution, it is clear that Medicare rates for the solution are significantly higher than the
discounted costs of one low-volume supplier.




                                              8

                          RECOMMENDATION

The HCFA Should Examine Other Payment Methods That Could Lead
To More Cost Effective Reimbursement For Parenteral Nutrition
solutions.

It is clear that many other payers reimburse less than Medicare for parenteral 

nutrition.   In addition, suppliers may purchase parenteral nutrition solutions at 

discounted prices which are significantly lower than Medicare’s reimbursement        rates. 

Implementing     an alternative reimbursement    method could result in significant savings 

to the Medicare program.       We urge HCFA to pursue one or more of the following 

options to bring Medicare’s reimbursement       in line with Medicaid and other payers. 


Inherent      Reasonableness 


The Secretary or the DMERCs could use their “inherent         reasonableness”   authority   to 

reduce reimbursement  to more appropriate levels. 


Acquisition      Cost 


The HCFA could base its reimbursement        on suppliers   acquisition costs. There is 

evidence that acquisition costs for parenteral nutrition    are far below Medicare’s 

current reimbursement    rate. 


Competitive       Bidding 


The HCFA could seek legislative authority to use competitive bidding to take 

advantage of its position as a high-volume purchaser of parenteral nutrition. 


AGENCY COMMENTS

The HCFA concurred with our recommendation.          The HCFA reported that they have
convened a Workgroup to focus on ways to reduce and control costs for parenteral
nutrition.  The HCFA also explained that the President’s Fiscal Year 1998 budget
includes proposals to give carriers the authority to make inherent reasonableness
adjustments   for durable medical equipment, to eliminate the mark up for drugs and
biologicals and include acquisition cost in the reimbursement   calculation, and to
authorize the Secretary to set payment rates for Part B services bases on competitive
bidding. The full text of HCFA’s comments is included in Appendix B.




                                               9

                                       ENDNOTES 



1. The average which Medicare          reimburses    more than Medicaid   was calculated   in the
following manner:

       For each code the percentage      difference between each lower-paying Medicaid
       agency’s price and Medicare’s reimbursement       level was calculated.     These
       percentage   differences were then averaged for each code. Using the average
       for each code we calculated the overall percentage        difference in prices for
       parenteral nutrition.   Potential Medicare reductions in allowances were
       calculated by subtracting the overall percentage     difference from Medicare’s
       actual 1995 allowances.

       The average differences for Medicare risk-contract HMOs            and manufacturers’
       contract prices were calculated in the same manner.

2. See explanation   of calculations     above.

3. See explanation   of calculations     above.




                                                    10 

                                  APPENDIX                    A


Definition   of four parenteral   nutrition   procedure   codes with the highest   allowances       in
1995.

B4189                   Parenteral nutrition solution; compounded      amino acid and
                        carbohydrates   with electrolytes, trace elements, and vitamins
                        including preparation,   any strength, 10 to 51 grams of protein        -
                        premix.

B4193                   Parenteral nutrition solution; compounded      amino acid and
                        carbohydrates   with electrolytes, trace elements, and vitamins
                        including preparation,   any strength, 52 to 73 grams of protein        -
                        premix.

B4197                   Parenteral nutrition solution; compounded      amino acid and
                        carbohydrates   with electrolytes, trace elements, and vitamins
                        including preparation,   any strength, 74 to 100 grams of protein           -
                        premix.

B4199                   Parenteral nutrition solution; compounded      amino acid and
                        carbohydrates   with electrolytes, trace elements, and vitamins
                        including preparation,   any strength, over 100 grams of protein        -
                        premix.




                                                A-l
APPENDIX        B





 AGENCY COMMENTS 





        B-l
                                                                     Health Care 

                                                                     Financmg Adnmstrat~on 




                                                                     Memorandum
               JUN   2 7   1997
DATE

TO           June Gibbs Brown
             Inspector General
    .C
FROM         Bruce C. VIadeck.
             Administrator

SUBJECT     Office of Inspector General (OIG) Draft Report: “Medicare
Reimbursement for Parenteral Nutrition,” (OEI-03-96-00230)


We reviewed the above-referenced report concerning Medicare’s reimbursement of
parenteral nutrition as compared to other payers.

Our comments are attached for your consideration. Thank you for the opportunity to
review and comment on this report.

Attachment




                                             � 
             Health Care Financing Administration (HCFA) Comments on 

 Offke of Insnector General (OIG) Draft Report entitled: “Medicare Reimbursement for 

                      Parenteral Nutrition.” (OEI-03-96-00230) 



OIG Rmommendation 


HCFA should examine other payment methods that could lead to more cost-effective 

reimbursement for parenteral nutrition solutions. We urge HCFA to pursue one or more 

of the following options to bring Medicare’s reimbursement in line with Medicaid and 

other payers. 


Inherent Reasonableness 


The Secretary or the durable medical equipment regional carriers (DMERCs) could use 

their “inherent reasonableness” authority to reduce reimbursement to more appropriate 

levels. 


HCFA Response 


We concur. HCFA convened a Workgroup to focus on ways to reduce and control costs 

for parenteral nutrition. In fact, the Workgroup is currently considering use of the 

inherent reasonableness process as one method for reducing cost for the enteral nutrition 

therapy benefit. The results of our review of this process will enable HCFA to use 

“lessons learned” to avoid problem experiences with the enteral nutrition inherent 

reasonableness calculation. In addition, the President’s fiscal year (FY) 1998 budget 

includes a proposal that would restore to Medicare carriers the authority to make inherent 

reasonableness adjustments for DME, prosthetics (DMEPOS), and surgical dressings.            *

The Secretary’s inherent reasonableness authority would apply to all Part B services 

except physician services. 


Acquisition Cost 


HCFA could base its reimbursement on suppliers’ acquisition costs. There is evidence 

that acquisition costs for parenteral nutrition is far below Medicare’s current 

reimbursement rate. 





                                               � 
Page 2

HCFA Response

We concur. A proposal that would eliminate the mark-up for drugs and biologicals, such
as parenteral nutrition, is included in the President’s FY 1998 budget. Under this
provision, the Medicare amount payable for the drug or biological would be the lowest
Of:



(a)      the physician’s, supplier’s, or other person’s actual acquisition cost, 

(b)      the average wholesale price, as specified by the Secretary, 

(c)      the median actual acquisition cost of all claims for the .drug or biological for the 

         12-month period beginning July 1, 1998, adjusted annually and effective on
         January 1 of each year, or
(d)      the amount determined otherwise under the Social Security Act.



HCFA could seek legislative authority to use competitive bidding to take advantage of its
position as a high volume purchaser of parenteral nutrition.

HCFA Resnonse

We concur. Under a proposal included in the President’s FY 1998 budget, the Secretary
would be authorized to set payment rates for Part B services (excluding physician
services) based on competitive bidding. The items included in a bidding process and the
geographic areas selected for bidding would be determined by the Secretary based on
availability of entities able to furnish the item or services and the potential for achieving
savings. Bids would be accepted from entities only if they met quality standards
specified by the Secretary. The Secretary would have the authority to exclude suppliers
whose bids are above the cut-off bid determined sufficient to maintain access. Automatic
reductions in rates would be triggered for clinical laboratory services and DMEPOS,
excluding oxygen services, if by 200 1 a 20 percent reduction had not been achieved.
